          Office of Inspector General




May 2, 2006

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Postal Inspection Service Noncompetitive Contract
         Process (Report Number SA-AR-06-003)

The U.S. Postal Service Office of Inspector General (OIG) conducted a self-initiated
audit of controls over the Postal Inspection Service’s noncompetitive contract process
(Project Number 06YG018SA000). Our objective was to determine whether the Postal
Inspection Service had effective controls over the noncompetitive contract process.
We announced that we would continue our work on noncompetitive contracts in
December 2005, at the time we suspended our audit of the Postal Inspection Service’s
Procurement and Administrative Service Center (PASC).

Controls over the noncompetitive contract process were generally effective. However,
improvements could be made to overall contract documentation to decrease the risk of
mishandling U.S. Postal Service funds. Specifically, five of the 11 contracts we
reviewed did not include justifications. Based on discussions with Postal Service
representatives, the files including the justifications were missing and could not be
located at the time of the audit.

We recommended that the vice president, Supply Management: (1) ensure that all
contracts contain a proper justification, documenting the rationale for the decision to use
the noncompetitive purchasing method as required, and (2) maintain all contracts on file
until the date of archiving. Also, upon archiving contracts, the contracting officer should
keep accurate records, making contracts obtainable upon request.

Management agreed with the two recommendations and stated they will cascade this
OIG report under the Supply Management’s Review for Excellence Program to the
managers in their organization. In turn, these managers will be required to review the
report and cascade it down to all contracting personnel within their organizations.
Postal Inspection Service Noncompetitive                                       SA-AR-06-003
 Contract Process


                                                 Background
The Postal Inspection Service is responsible for ensuring the integrity of the mail and
safeguarding the Postal Service by performing investigative, security, and preventive
services, and enforcing approximately 200 federal laws that protect the mail, postal
employees, customers, and critical assets.

In support of the Postal Inspection Service’s mission, PASC personnel procure goods
and services for the Postal Inspection Service. These personnel have local buying
authority for noncapital items up to $10,000.1 Local buying authority is the authority to
buy and pay for day-to-day operational needs that do not exceed $10,000 per purchase,
and is designed to streamline the purchasing process.

The Postal Inspection Service does not have contracting authority. Contracting
authority is the authority to bind the Postal Service to a contract, not including
arrangements made by local buying procedures. Contracts can only be exercised by
warranted contracting officers within a U.S. Postal Service Purchasing Service Center
(PSC) or Category Management Center (CMC).2

In fiscal year (FY) 2006, the Postal Inspection Service is managing
179 noncompetitively awarded contracts valued at approximately $26.7 million.
See Table 1 for a list of the contracts.




1
    Postal Inspection Service Manual, Section 152.2, dated January 7, 2005.
2
    Postal Inspection Service Purchasing Guidelines, 2005, Section B.1.



                                                           2
Postal Inspection Service Noncompetitive                                           SA-AR-06-003
 Contract Process



                    Table 1. FY 2006 Noncompetitively Awarded Contracts

                                        Number                    Percentage    Percentage
                                          of                        of Total     of Total
            Program/Unit               Contracts       Amount      Contracts      Dollars

   WCA Program                               88    $ 3,840,000          49.2           14.4
   FTSD                                      42    $12,087,332          23.5           45.4
   Other:                                    38     $9,718,492          21.2           36.4
    Headquarters Units                       14       5,971,776          7.8           22.4
    Investigative Systems                      4      1,944,899          2.2            7.3
    Hurricane Katrina*                         3        996,821          1.7            3.7
    Career Development                       11         454,594          6.1            1.7
    Threat Management                          3        167,966          1.7             .6
    San Francisco Division                     2        107,436          1.1             .4
    Philadelphia Division                      1         75,000           .6             .3
    Miscellaneous Contracts**                11       1,009,390          6.1            3.8
     Total:                                 179    $26,655,214         100.0          100.0
       Note: *The OIG’s assessment of the contracts for Hurricane Katrina will be discussed in
                a separate report to be issued in May 2006.

        Note: ** Miscellaneous contracts represent the remaining 11 contracts with Postal
                 Inspection Service annuitants.

        Legend:
                   FTSD     Forensic and Technical Service Division
                   WCA      Workers’ Compensation Analyst

In some cases, the business and competitive objectives of the Postal Service may best
be met through the noncompetitive purchase method. The decision to use this method
must be weighed by the purchase team, and must be considered in light of the potential
benefits of competition and other worthwhile business practices.

In four business scenarios, the noncompetitive method may prove the most effective:
compelling business interests, industry structure or practice, single source, and superior
performance. Purchase teams may decide to use the noncompetitive purchasing
method when it is deemed the most effective business practice for a given purchase.
The rationale for the decision must be documented in a business case and included in
the contract file.

                          Objective, Scope, and Methodology
Our overall objective was to determine whether the Postal Inspection Service had
effective controls in place over the noncompetitive contract process. To accomplish this
objective, we:



                                                   3
Postal Inspection Service Noncompetitive                                       SA-AR-06-003
 Contract Process



•     Reviewed the Postal Inspection Service Purchasing Guidelines, 2005, and
      procedures for competitive and noncompetitive purchases, including Postal Service
      Administrative Support Manual 7.3

•     Reviewed a listing of FY 2006 WCA contractors as of November 2005 from the
      national WCA coordinator – Group 3 at Postal Inspection Service headquarters.

•     Evaluated copies of contracts and justifications provided by the purchasing and
      supply management specialist – Travel, Retail and Temporary Services CMC,
      Aurora, Colorado, and the PASC.

•     Performed a comparative analysis between the list of WCAs and the list of 45 Postal
      Inspection Service annuitants, and determined that 11 of the Postal Inspection
      Service annuitants had contracts for services in a program other than the WCA
      Program. (See Table 1, Miscellaneous Contracts.)

•     Made overall assessments of contracts based on the number and dollar amount of
      contracts and divided the contracts into three categories: WCA program, FTSD, and
      other noncompetitive contracts.

Additionally, we queried the OIG’s hotline database to determine whether numerous
allegations had been made, indicating systemic issues regarding the noncompetitive
contract process.

We conducted the audit from September 2005 through May 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate.

                                          Prior Audit Coverage
We did not identify any prior audits related to the Postal Inspection Service’s
noncompetitive contract process. However, the OIG has an ongoing audit of Controls
Over Noncompetitively Awarded Contracts for the Postal Service. The results of this
audit will be presented in a separate report in May 2006.

                                                     Results

Controls over the noncompetitive contract process were generally effective. However,
improvements could be made to overall contract documentation to decrease the risk of
mishandling Postal Service funds. Specifically, five of the 11 contracts we reviewed did
3
    Updated with Postal Bulletin revisions through September 15, 2005.



                                                           4
Postal Inspection Service Noncompetitive                                                         SA-AR-06-003
 Contract Process


not include justifications. Based on discussions with Postal Inspection Service
representatives, the files including the justifications were missing and could not be
located at the time of the audit.

Workers’ Compensation Analyst Program

For FY 2006, Postal Inspection Service personnel used a blanket business case to
justify 89 contracts in support of the WCA program. WCAs provide investigative support
to the Postal Inspection Service’s Fraudulent Workers’ Compensation Program by
assisting them with resolving fraudulent front-end (Continuation of Pay and
Occupational Injury) schemes.

In the blanket business case for the 88 contracts,4 the compelling business reason and
supplier superior performance were the reasons used to justify the noncompetitive
purchases. In our assessment of the FY 2005 WCA listing containing 127 contracts, we
determined that 39 contracts were terminated at the end of FY 2005, leaving a total of
88 contracts remaining for FY 2006. Further, the superior performance section of the
business case showed that only those contractors from the previous fiscal year with
above average or superior performance were kept in the program.5 Additionally, in the
market research portion of the business case, the Postal Service concluded that the
hourly rates of $25 to $55 per hour for former inspectors were fair and reasonable
compared to the starting rate of $75 per hour paid to private investigators. Based on
our market research, we determined that the hourly rates of $25 to $55 per hour were
fair and reasonable as compared to rates of $50 to $150 for private investigators.6

Furthermore, of the 88 contracts we reviewed, 327 (or 36 percent) were Postal
Inspection Service annuitants; 40 (or 45 percent) were annuitants from other agencies;
and 16 (or 18 percent) were not annuitants. Since the annuitants represented more
than half of the WCA program, we performed additional analyses to assess the use of
former Postal Service8 employees. Additionally, based on our query of the hotline
database, there were previous allegations of misconduct with respect to awarding
contracts to former Postal Service and Postal Inspection Service employees.

Award to Former Postal Inspection Service Employees

In our review of the 459 Postal Inspection Service annuitants, we determined that
34 were contractors in support of the WCA program in FY 2005. As discussed in the

4
  Although the Postal Inspection Service developed a business case for 89 contractors, they used 88 contractors.
5
  The WCA budget was cut approximately $2 million from FYs 2005 to 2006 (WCA budget dated September 7, 2005).
Additionally, the WCA contracts are renewed annually.
6
  www.howtoinvestigate.com/picourse/questions.htm and www.tmg-pi.com/choosing.htm.
7
  We reviewed 32 Postal Inspection Service annuitants according to the listing of FY 2006 WCA contractors the
National WCA coordinator at Postal Inspection Service headquarters provided.
8
  This report only assesses the use of former Postal Inspection Service employees. The OIG’s report on Controls
Over Noncompetitively Awarded Contracts will include an assessment of other former Postal Service employees.
9
  Listing as of July 19, 2005 (FY 2005).



                                                       5
Postal Inspection Service Noncompetitive                                                             SA-AR-06-003
 Contract Process


previous section, we determined the business case justification for noncompetitively
awarded contracts to the WCAs was appropriate. For the remaining 11 contracts,
valued at $1 million, we determined that six contracts, valued at $349,390, contained
justifications, which provided sufficient rationale for the decision to use the
noncompetitive purchasing method as the most effective business practice.

However, five of the 11 contracts, valued at $660,000, did not contain justifications in
the contract files for noncompetitive purchases. When we requested files from the
Postal Service Headquarters, the contracting officer stated they could not locate the
files and that it was possible the information had been altered in the old system, the
Strategic National Automated Purchasing System, to be converted to the new system,
the Contract Authoring and Management System. Also, they did not know whether they
actually had possession of the physical files. Therefore, we contacted the San Mateo
Accounting Service Center and received copies of the contract files, but San Mateo did
not have copies of the justifications for noncompetitive purchases.

A completed business case form must be attached, along with any other justification, to
each requisition for a noncompetitive purchase.10 With the absence of a business case
for a noncompetitive purchase, there is a risk of increased costs by paying above
market value for services, using resources that do not have superior knowledge and
prior training in the investigation field. Additionally, the absence of a business case
could contribute to the perception that former Postal Service and Postal Inspection
Service employees are being hired without the appropriate qualifications, as alleged in
the hotline complaints.

Further, an active record may be maintained in either hard copy or electronic medium.
Electronic records should reflect the hard copy document showing signatures and dates
and be stored as a read-only file. Typically, a contract is officially closed out within
30 days from completion of all administrative actions, and the Postal Service is required
to ensure that all files are properly boxed and transferred to storage for a period of
6 years from the end of the fiscal year in which the closeout occurred.11 Without
complete contract files, the Postal Service cannot provide proof of the proper
authorizations for payments for services rendered or products, which could result in the
misuse or abuse of Postal Service funds.

Recommendations

We recommend the vice president, Supply Management, direct contracting officers to:

       1. Ensure that all contracts contain a proper justification, documenting the rationale
          for the decision to use the noncompetitive purchasing method as required.



10
     Postal Inspection Service Purchase Guidelines, 2005, Section B under “Noncompetitive Purchases.”
11
     SM 2004-010, Administrative Instruction, Solicitation and Contract File Management dated September 29, 2004.



                                                          6
Postal Inspection Service Noncompetitive                                         SA-AR-06-003
 Contract Process


    2. Maintain all contracts on file until the date of archiving. Also, upon archiving
       contracts, the contracting officer should keep accurate records, making contracts
       obtainable upon request.

Management’s Comments

Management agreed with the two recommendations and stated they will cascade this
OIG report under the Supply Management’s Review for Excellence Program (SM REP)
to the managers in their organization. In turn, these managers will be required to review
the report and cascade it down to all contracting personnel within their organizations.
The SM REP cascade request will be issued within 30 calendar days following receipt of
the final report. Management’s comments, in their entirety, are included in the
appendix.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. Management’s
actions to reinforce existing Supply Management guidance should improve contract
documentation to decrease the risk of mishandling Postal Service funds. In response to
management’s comments, we have corrected the title of a Supply Management
organization and a Supply Management system.

Other Noncompetitive Contracts

The Postal Inspection Service had 80 additional noncompetitive contracts, valued at
approximately $21.8 million. About half of these contracts were for the FTSD program.
The Postal Inspection Service used 42 noncompetitive contracts, valued at
approximately $12.1 million, for the FTSD program. The FTSD comprises more than
100 inspectors, highly-trained forensic scientists, and technical specialists who play a
key role in identifying, apprehending, prosecuting, and convicting individuals
responsible for Postal Service-related criminal offenses. The FTSD mission is to
provide scientific and technical expertise to the criminal and security investigations of
the Postal Inspection Service.

All 42 of these contracts we reviewed contained justifications for noncompetitive
purchases. Business cases included justifications of single source scenarios, such as
vendors that hold patents on systems on intelligent automation systems for commercial,
industrial, and institutional buildings. Additionally, business cases included justifications
of superior performance, such as a vendor developing a strong reputation with the
Postal Service and Postal Inspection Service based on prior technical equipment
upgrades and installments, to justify noncompetitive purchases.

Also, we determined the remaining 38 noncompetitive contracts, valued at
approximately $9.7 million, contained the proper justifications for noncompetitive
purchases. Business cases included justifications of compelling business interests such



                                              7
Postal Inspection Service Noncompetitive                                     SA-AR-06-003
 Contract Process


as expertise or monopoly in the latest technology tools, single source scenarios such as
vendors being the only trainers specific to certain training in hazardous materials, and
superior performance. For instance, some vendors developed training specifically for
the mission of the Postal Inspection Service as it relates to the Postal Service’s
deployment of the Biohazard Detection System.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sandra D. Bruce, director,
Oversight of Investigative Activities, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachment

cc: Lawrence E. Maxwell
    Nicole A. Johnson
    Mary Anne Gibbons
    Steven R. Phelps




                                           8
Postal Inspection Service Noncompetitive                 SA-AR-06-003
 Contract Process


                       APPENDIX. MANAGEMENT’S COMMENTS




                                           9
Postal Inspection Service Noncompetitive        SA-AR-06-003
 Contract Process




                                           10
